HHS/OIG, Audit - "Medicaid Payments For School-Based Health Services New Bedford, Massachusetts -July1999 Through June 2000,"(A-01-01-00005)
Department
of Health and Human Services
"Medicaid Payments For School-Based Health Services New Bedford, Massachusetts - July 1999 Through June 2000," (A-01-01-00005)
May 1, 2002
Complete
Text of Report is available in PDF format (1.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the New Bedford Public Schools billed the Medicaid program $264,226 (Federal share)
for school-based health services on 34 dates when the school was not open to students.  In addition, New Bedford Public
Schools billed the Medicaid program:(1) when students were absent, (2) for several students who were not prescribed to
receive school-based health services, and (3) for several students for which the school system did not locate any documentation
to demonstrate that services prescribed were delivered.  We estimate that the New Bedford Public Schools were inappropriately
overpaid at least $290,193 (Federal share)  in these cases.  In addition to procedural corrections, we recommended
that New Bedford Public Schools refund $554,419.  School officials generally agreed with our procedural recommendations,
but did not express agreement or disagreement with the recommended financial adjustment.